No. 21-5841
IN THE

SUPREME COURT OF THE UNITED STATES
RAFIQ SABIR,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.

AMENDED CERTIFICATE OF SERVICE
Petitioner Rafiq Sabir electronically filed his Motion for Leave to Proceed In
Forma Pauperis and Petition for a Writ of Certiorari on September 28, 2021. The
Petition and papers were filed three days before the filing deadline of October 1, 2021.
Petitioner also filed a Certificate of Service indicating the papers would be served on
the Acting Solicitor General via email the same day.
Petitioner’s counsel’s office inadvertently failed to email the papers on
September 28. Accordingly, Petitioner files this Amended Certificate of Service.
Petitioner served the Motion for Leave to Proceed In Forma Pauperis and Petition
For a Writ of Certiorari, together with attachments and appendices, on October 1,
2021, via email to the following:
Brian H. Fletcher
Acting Solicitor General of the United States
Office of the Solicitor General
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
SupremeCtBriefs@usdoj.gov
Dated: October 1, 2021

/s/ Allie J. Hallmark
Allie J. Hallmark
Counsel of Record for Petitioner

